Nos. 19-508 & 19-825
IN THE

Supreme Court of the United States
AMG CAPITAL MANAGEMENT, LLC, ET AL.,
Petitioners,
v.
FEDERAL TRADE COMMISSION,
Respondent.
FEDERAL TRADE COMMISSION,
Petitioner,
v.
CREDIT BUREAU CENTER, LLC, ET AL.,
Respondents.

On Writs of Certiorari to the
United States Courts of Appeals
for the Ninth and Seventh Circuits

MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX

NEAL KUMAR KATYAL
Counsel of Record
HOGAN LOVELLS US LLP
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.com
Counsel for Credit Bureau Center, LLC and Michael Brown
September 17, 2020

RULE 29.6 DISCLOSURE STATEMENT
Credit Bureau Center, LLC is wholly owned by Michael Brown and is not a
parent company or a subsidiary of any other company.

i

Pursuant to Supreme Court Rule 26.8, the parties in Nos. 19-508 and 19-825
respectfully seek leave to dispense with the requirement of a joint appendix. Counsel for the Petitioners and Respondent in No. 19-508, and counsel for the Petitioner
and Respondents in No. 19-825, have consulted with each other and agree that a
joint appendix is unnecessary in both cases, and have authorized counsel for Credit
Bureau Center, LLC and Brown to file this motion.
The appendices to the petitions for writs of certiorari in the two cases include
all the relevant lower court opinions and orders. The parties do not believe that any
other portion of the record merits special attention that warrants the preparation
and expense of a joint appendix. Accordingly, a separate joint appendix would not
materially assist in the Court’s consideration of these cases.
For the foregoing reasons, the motion to dispense with the requirement of a
joint appendix should be granted.

Respectfully submitted,

/s/ Neal Kumar Katyal
NEAL KUMAR KATYAL
Counsel of Record
HOGAN LOVELLS US LLP
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.com
Counsel for Credit Bureau Center, LLC and Michael Brown
September 17, 2020

1

